Appendix

This opinion is subject to revision before publication

UNITED STATES COURT OF APPEALS
FOR THE

ARMED FORCES

_______________

UNITED STATES
Appellee
v.
Cedric L. McDONALD, Private First Class
United States Army, Appellant
No. 18-0308
Crim. App. No. 20160339
Argued February 19, 2019—Decided April 17, 2019
Military Judge: Douglas K. Watkins
For Appellant: Captain Steven J. Dray (argued); Colonel
Elizabeth G. Marotta, Lieutenant Colonel Christopher D.
Carrier, Lieutenant Colonel Tiffany D. Pond, and Major
Julie L. Borchers (on brief).
For Appellee: Captain Sandra L. Ahinga (argued); Colonel
Steven P. Haight and Major Wayne H. Williams (on brief).

Chief Judge STUCKY delivered the opinion of the
Court, in which Judges RYAN, OHLSON, SPARKS, and
MAGGS, joined.
_______________

Chief Judge STUCKY delivered the opinion of the Court.
Appellant was convicted of sexual assault by bodily harm
on a nonconsent theory. The military judge in his case gave
no specific mens rea instruction beyond the standard mistake of fact defense, which provides a defense if the accused
had an honest and reasonable (nonnegligent) belief that consent was obtained. Appellant, however, contends that Elonis
v. United States, 135 S. Ct. 2001 (2015), required the military judge to instruct the members that a mens rea of at
least recklessness with regard to consent was necessary for
conviction. We granted review to determine the required
mens rea for sexual assault by bodily harm, and conclude
that Congress clearly implied a general intent mens rea for
that offense.

United States v. McDonald, No. 18-0308/AR
Opinion of the Court
I. Procedural History

A general court-martial composed of officer and enlisted
members convicted Appellant, contrary to his pleas, of one
specification of conspiracy to commit sexual assault and one
specification of sexual assault by bodily harm in violation of
Articles 81 and 120, Uniform Code of Military Justice
(UCMJ), 10 U.S.C. §§ 881, 920 (2012). He was sentenced to a
dishonorable discharge, reduction to the lowest enlisted
grade, forfeiture of all pay and allowances, and three years
of confinement. The convening authority approved the findings and sentence, and the United States Army Court of
Criminal Appeals (CCA) affirmed. United States v. McDonald, No. ARMY 20160339, 2018 CCA LEXIS 239, at *9, 2018
WL 2273588, at *4 (A. Ct. Crim. App. May 16, 2018).
II. Background

Private Quantavious Thomas, Appellant’s barracks
roommate, met DJ, a civilian woman, on a dating website in
the summer of 2015. Private Thomas and DJ had met socially on two occasions prior to the night in question. Appellant
was present for both these occasions, but had never spoken
with DJ.
On August 31, DJ went to Appellant and Private Thomas’s shared barracks room at the latter’s request. Prior to
arriving, DJ asked twice via text message if anyone else
would be in the room, and he replied no both times. DJ also
insisted via text that she was not coming over for sex. It was
dark when she first entered the shared barracks room, and
she testified that there was no sign of anyone else in the
room. However, Appellant was present, in his half of the
shared room.
The parties all agree that eventually DJ and Private
Thomas began to have sex, that at some point DJ bent over
the bed so that Private Thomas could penetrate her vulva
with his penis from behind, and that at some point Appellant took Private Thomas’s place and penetrated DJ from
behind.
DJ stated that she was unaware of Appellant’s presence
in the room until she reached back during intercourse and
felt Appellant’s wristwatch, an accessory she knew Private

2

United States v. McDonald, No. 18-0308/AR
Opinion of the Court

Thomas was not wearing. She testified that no one had
asked her for her consent to sexual intercourse with Appellant. Private Thomas testified that DJ could clearly see Appellant when she walked into the room, and that he (Private
Thomas) asked her—with Appellant standing next to both of
them—if both he and Appellant could have sex with her.
Appellant’s statement to CID, admitted into evidence, included a claim that he asked DJ if he could have sex with
her, “and she said yeah.” It also stated that he did not feel
like he had done anything wrong because “there was consent.” Defense counsel argued in closing that “[Appellant]
knew he was 100 percent, convinced she was consenting.
There is no lack of consent on his part, as he told CID.”
Appellant did not object to the instructions given by the
military judge, which were provided in advance with time to
review and make objections. Nor did he object when the instructions were read to the members. The military judge instructed the members that they must find three elements
beyond a reasonable doubt: (1) that Appellant committed a
sexual act upon DJ by penetrating her vulva with his penis,
(2) that he did so by causing bodily harm, namely penetrating DJ’s vulva with his penis, and (3) that he did so without
DJ’s consent.
His instructions regarding consent and mistake of fact as
to consent mirrored the language of the Military Judges’
Benchbook, the Rules for Courts-Martial (R.C.M.), and Article 120, UCMJ. 1 Specifically, the military judge instructed
that consent “means a freely given agreement to the conduct
at issue by a competent person,” that “[l]ack of verbal or
physical resistance … does not constitute consent,” and that
any mistake of fact must be “reasonable under all the circumstances” and not “based on the negligent failure to discover the true facts.”
III. Law and Discussion

The mens rea applicable to an offense is an issue of statutory construction, reviewed de novo. See United States v.
1 Dep’t of Army, Pam. 27–9, Legal Services, Military Judges’
Benchbook para. 3–45–14 (2014); R.C.M. 916(j)(1); Article
120(g)(8), (f), UCMJ, 10 U.S.C. § 920(g)(8), (f) (2012).

3

United States v. McDonald, No. 18-0308/AR
Opinion of the Court

Gifford, 75 M.J. 140, 142 (C.A.A.F. 2016). When panel instructions are not objected to at trial, they are reviewed by
this Court for plain error. United States v. Haverty, 76 M.J.
199, 208 (C.A.A.F. 2017). Relief will only be granted where
(1) there was error that was (2) clear or obvious, and that (3)
materially prejudiced a substantial right of the accused.
United States v. Armstrong, 77 M.J. 465, 469 (C.A.A.F.
2018). In determining the mens rea applicable to an offense,
we must first discern whether one is stated in the text, or,
failing that, whether Congress impliedly intended a particular mens rea. Gifford, 75 M.J. at 143–44.
We conclude that Congress clearly intended a general
intent mens rea for Article 120(b)(1)(B), 10 U.S.C.
§ 920(b)(1)(B) (2012), sexual assault by bodily harm. The
military judge’s instructions were therefore not erroneous.
Accordingly, we need not reach the second or third prongs of
the plain error analysis. We reach this conclusion for four
reasons: (1) the plain text of the statute clearly implies a
general intent offense, (2) the offense evolved from a general
intent offense, (3) the presence of a negligence mens rea
elsewhere in the statute suggests that Congress affirmatively chose to leave sexual assault by bodily harm as a general
intent offense, and (4) construing the statute as a general
intent offense does not criminalize innocent conduct.
A. Plain Language
“As in all statutory construction cases, we begin with the
language of the statute.” Barnhart v Sigmon Coal Co., 534
U.S. 438, 450 (2002). Appellant was charged with “sexual
assault by causing bodily harm” in violation of Article
120(b)(1)(B), UCMJ, 10 U.S.C. § 920(b)(1)(B) (2012). At the
time, Article 120(b)(1)(B) provided that any person subject to
the UCMJ who “commits a sexual act upon another person
by … causing bodily harm to that other person … is guilty of
sexual assault and shall be punished as a court-martial may
direct.” Article 120(g)(1)(A) defined “sexual act” to include
“contact between the penis and the vulva or anus or mouth,
and for purposes of this subparagraph contact involving the
penis occurs upon penetration, however slight.” Article
120(g)(3) defined “bodily harm” as “any offensive touching of
another, however slight, including any nonconsensual sexual
act.” Article 120(g)(8)(A) further defined “consent” as “a
4

United States v. McDonald, No. 18-0308/AR
Opinion of the Court

freely given agreement to the conduct at issue by a competent person.” Article 120(f), meanwhile, permitted an accused to raise any applicable defenses available under the
R.C.M., and here Appellant raised the affirmative defense of
mistake of fact. R.C.M. 916(j)(1). For the defense of mistake
of fact to exist, “the ignorance or mistake of fact must have
existed in the mind of the accused and must have been reasonable under all the circumstances.” Id. Once raised, the
Government bore the burden to prove beyond a reasonable
doubt that the defense did not exist. R.C.M. 916(b)(1).
The
statutory
elements
are
thus
ultimately
straightforward: it is an offense to commit a sexual act
without consent, although an honest and reasonable
(nonnegligent) mistake of fact as to consent serves as an
affirmative defense. Such a construction typically suggests a
general intent offense. Cf. United States v. Langley, 33 M.J.
278, 281 (C.M.A. 1991) (“No specific intent is mentioned in
the [Article 120 rape] statute—only general criminal mens
rea is involved.”); United States v. Binegar, 55 M.J. 1, 11
(C.A.A.F. 2001) (Crawford, C.J., dissenting on other
grounds) (Discussing the elements of rape: “Here, the
statutory language of the crime does not assign a specific
intent mens rea to any of the elements. Therefore, only an
honest and reasonable mistake will suffice because the
entire crime is one of general intent.”).
We have recognized that, per Elonis, the existence of a
mens rea is presumed in the absence of clear congressional
intent to the contrary. Haverty, 76 M.J. at 203–04. However,
we also recognize that a general intent mens rea is not the
absence of a mens rea, and such offenses remain viable in
appropriate circumstances post-Elonis. Elonis, 135 S. Ct. at
2010 (“In some cases, a general requirement that a defendant act knowingly is itself an adequate safeguard.”). Thus,
we conclude that the plain text clearly implies a general intent offense. 2

We note that Congress did articulate a specific mens rea for
other types of sexual assault by bodily harm. For certain types of
sexual acts, the government must show that the accused acted
with the “intent to abuse, humiliate, harass, or degrade any person,” or “to arouse or gratify the sexual desire of any person.” Arti2

5

United States v. McDonald, No. 18-0308/AR
Opinion of the Court

B. Legal Context
Further, the appropriate mens rea can be implied from
context. Haverty, 76 M.J. at 204. “We assume that Congress
is aware of existing law when it passes legislation.” Miles v.
Apex Marine Corps, 498 U.S. 19, 32 (1990). Thus we must
“take into account [the] contemporary legal context” at the
time the statute was passed. Cannon v. University of Chicago, 441 U.S. 677, 699 (1979).
Article 120 rape stated a general intent offense when
Congress established sexual assault by bodily harm. See
Langley, 33 M.J. at 281–82. This was consistent with the
common law crime of rape, which was also a general intent
crime. 2 Wayne R. LaFave, Substantive Criminal Law
§ 17.2(b) (3d ed. 2018) (“[T]here exists no issue in the prosecution of the crime of rape regarding defendant's perception
of the requisite attendant circumstances (e.g., whether or
not the woman had given consent).”); see also 75 C.J.S. Rape
§ 55 (2019) (“The crime of rape has always been considered a
general-intent crime….”). Nothing in the text of the statute
indicates any congressional intent to introduce a higher
mens rea than the historical general intent.
Because the antecedent offense was a general intent offense, we can infer by Congress’s silence on the mens rea for
sexual assault by bodily harm that it impliedly stated a general intent mens rea for that offense.
C. Statutory Structure
Additionally, the structure of the statute implies a general intent mens rea. “It is a fundamental canon of statutory
construction that the words of a statute must be read in
their context and with a view to their place in the overall
statutory scheme.” United States v. Kelly, 77 M.J. 404, 406–
407 (C.A.A.F. 2018) (internal quotation marks omitted)
(quoting FDA v. Brown & Williamson Tobacco Corp., 529
U.S. 120, 133 (2000)); see also United Sav. Ass’n of Tex. v.
Timbers of Inland Forest Assoc., 484 U.S. 365, 371 (1988)
cle 120(g)(1)(B), UCMJ, 10 U.S.C. § 920(g)(1)(B) (2012)). In such a
case, obviously, that specific intent must be proved as well.

6

United States v. McDonald, No. 18-0308/AR
Opinion of the Court

(“Statutory construction …. is a holistic endeavor.”). Consequently, “[t]his Court typically seeks to harmonize independent provisions of a statute.” Kelly, 77 M.J. at 407 (alteration in original) (internal quotation marks omitted)
(quoting United States v. Christian, 63 M.J. 205, 208
(C.A.A.F. 2006)).
Consent is to be determined objectively. Article
120(g)(8)(C), 10 U.S.C. § 920(g)(8)(C) (2012). It is also to be
determined from the alleged victim’s perspective—consent is
his or her freely given agreement. Article 120(g)(8)(A), 10
U.S.C. § 920(g)(8)(A) (2012). No reference is made to the accused’s perception of consent. Interpreting the statute to require a specific mens rea on the part of the accused with respect to consent, as Appellant suggests, would override these
provisions. By contrast, inferring a general intent mens rea,
with the ability to raise a mistake of fact defense, avoids this
conflict.
Additionally, where “Congress includes particular language in one section of a statute but omits it in another section of the same Act, it is generally presumed that Congress
acts intentionally and purposely in the disparate inclusion
or exclusion.” Rodriguez v. United States, 480 U.S. 522,
525(1987) (internal quotation marks omitted) (citation omitted). In Article 120(b)(2) and 120(b)(3), 10 U.S.C. § 920(b)(2),
(3) (2012), Congress provided an explicit mens rea that the
accused “knows or reasonably should know” certain facts:
that the victim is unaware of the sexual act or incapable of
consenting to it. By contrast, under Article 120(b)(1)(B), it is
an offense simply to commit a sexual act without consent.
The fact that Congress articulated a specific mens rea with
respect to the victim’s state of mind elsewhere in the statute
further demonstrates that the required mens rea in this case
is only the general intent to do the wrongful act itself.
D. Wrongfulness of the Misconduct
Where Congress has clearly implied a mens rea, this
Court is obliged to respect that legislative intent. Haverty,
76 M.J. at 204. Because we have determined that Congress
intended Article 120(b)(1)(B) to state a general intent offense, that is the end of the matter. We also reject Appellant’s contention that general intent is insufficient to sepa-

7

United States v. McDonald, No. 18-0308/AR
Opinion of the Court

rate wrongful from innocent conduct because sexual intercourse is ordinarily innocent conduct.
As a general intent offense, sexual assault by bodily
harm has an implied mens rea that an accused intentionally
committed the sexual act. Cf. United States v. Grant, 38 M.J.
684, 694 (A.F.C.M.R. 1993) (considering but disbelieving the
appellant’s assertion that his penis accidentally penetrated
the victim’s vagina when they were in bed together). No
mens rea is required with regard to consent, however.
This does not criminalize otherwise innocent conduct because only consensual sexual intercourse is innocent. The
burden is on the actor to obtain consent, rather than the victim to manifest a lack of consent. Appellant’s actions could
only be considered innocent if he had formed a reasonable
belief that he had obtained consent. The Government only
needed to prove that he had not done so to eliminate the
mistake of fact defense. The military judge’s instructions
properly reflected that.
IV. Judgment

The judgment of the United States Army Court of Criminal Appeals is affirmed.

8

United States Court of Appeals
for the Armed Forces
Washington, D.C.

United States,
Appellee

USCA Dkt. No. 18-0308/AR
Crim.App. No. 20160339

v.
ORDER
Cedric L.
McDonald,
Appellant
On consideration of Appellant’s petition for reconsideration of this Court’s
opinion in United States v. McDonald, __ M.J. __ (C.A.A.F. 2019), the motion of
the United States Army Trial Defense Service (USATDS) for leave to appear pro
hac vice, and the motions of USATDS, counsel for Lieutenant Jacob A Patrick,
U.S. Navy, and “Interested Military Justice Practitioners” (IMJP), to file amicus
curiae briefs in support of Appellant, it is, by the Court, this 29th day of May,
2019,
ORDERED:
That the motion to appear pro hac vice is granted;
That the motions for leave to file amicus curiae briefs are granted as to
USATDS and LT Patrick;

U.S. v. McDonald, Dkt. NO. 18-0308/AR

That the motion for leave to file an amicus curiae brief is denied as out of
time as to IMJP;
That the petition for reconsideration is hereby denied; and
That the mandate issue forthwith.

For the Court,

/s/ Joseph R. Perlak
Clerk of the Court
cc:

The Judge Advocate General of the Army
Appellate Defense Counsel (Dray)
Appellate Government Counsel (Ahinga)
USATDS Counsel (O’Brien)
Counsel for LT Patrick

2

